<html>
<title> - LIFE IN THE BIG CITY: WHAT IS CENSUS DATA TELLING US ABOUT URBAN AMERICA? ARE POLICYMAKERS REALLY LISTENING?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
   LIFE IN THE BIG CITY: WHAT IS CENSUS DATA TELLING US ABOUT URBAN 
              AMERICA? ARE POLICYMAKERS REALLY LISTENING?

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON FEDERALISM
                             AND THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2005

                               __________

                           Serial No. 109-86

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-298                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

               Subcommittee on Federalism and the Census

                   MICHAEL R. TURNER, Ohio, Chairman
CHARLES W. DENT, Pennsylvania        WM. LACY CLAY, Missouri
CHRISTOPHER SHAYS, Connecticut       PAUL E. KANJORSKI, Pennsylvania
VIRGINIA FOXX, North Carolina        CAROLYN B. MALONEY, New York
------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     John Cuaderes, Staff Director
            Ursula Wojciechowski, Professional Staff Member
                         Juliana French, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 10, 2005.....................................     1
Statement of:
    Kincannon, Charles Louis, Director, U.S. Census Bureau; and 
      Thomas M. Dowd, Deputy Assistant Secretary, Employment and 
      Training Administration, U.S. Department of Labor, 
      accompanied by Tony Dais, Chief, Office of Employment 
      Services, Employment and Training Administration, U.S. 
      Department of Labor........................................     6
        Dowd, Thomas M...........................................    15
        Kincannon, Charles Louis.................................     6
    Morial, Marc, president, National Urban League; Paul Farmer, 
      executive director and CEO, American Planning Association/
      American Institute of Certified Planners; Mitchell Silver, 
      deputy director, long range planning, D.C. Office of 
      Planning, accompanied by Barry Miller, associate director, 
      ``Comprehensive Plan'', D.C. Office of Planning; and Audrey 
      Singer, immigration fellow, metropolitan policy, the 
      Brookings Institution......................................    34
        Farmer, Paul.............................................    40
        Morial, Marc.............................................    34
        Silver, Mitchell.........................................    56
        Singer, Audrey...........................................    85
Letters, statements, etc., submitted for the record by:
    Dowd, Thomas M., Deputy Assistant Secretary, Employment and 
      Training Administration, U.S. Department of Labor, prepared 
      statement of...............................................    18
    Farmer, Paul, executive director and CEO, American Planning 
      Association/American Institute of Certified Planners, 
      prepared statement of......................................    42
    Kincannon, Charles Louis, Director, U.S. Census Bureau, 
      prepared statement of......................................     8
    Morial, Marc, president, National Urban League, prepared 
      statement of...............................................    37
    Silver, Mitchell, deputy director, long range planning, D.C. 
      Office of Planning, prepared statement of..................    59
    Singer, Audrey, immigration fellow, metropolitan policy, the 
      Brookings Institution, prepared statement of...............    87
    Turner, Hon. Michael R., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     3


   LIFE IN THE BIG CITY: WHAT IS CENSUS DATA TELLING US ABOUT URBAN 
              AMERICA? ARE POLICYMAKERS REALLY LISTENING?

                              ----------                              


                         TUESDAY, MAY 10, 2005

                  House of Representatives,
         Subcommittee on Federalism and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.
    Present: Representatives Turner, Shays, and Dent.
    Staff present: John Cuaderes, staff director; Ursula 
Wojciechowski, professional staff member; Juliana French, 
clerk; Neil Siefring, Representative Turner's legislative 
director; Peter Neville, fellow; David McMillen, minority 
professional staff member; and Cecelia Morton, minority office 
manager.
    Mr. Turner. This hearing on the Subcommittee on Federalism 
and the Census will come to order.
    Welcome to the subcommittee's oversight hearing entitled, 
``Life in the Big City: What is Census Data Telling Us About 
Urban America? Are Policymakers Really Listening?'' The 
subcommittee will review Census Bureau surveys that collect 
demographic and economic data pertaining to urban areas and how 
that data is applying to urban planning.
    Federal, State and local policymakers are faced with the 
daunting task of delivering various programs and services to 
the citizens they represent. County and city departments need 
to zone for new residences, develop new public works projects, 
plan transportation infrastructures, ensure health care 
services, and locate new schools. As a former mayor, I 
recognize the challenges American cities face today.
    Metropolitan areas, including those with low population 
growth, are rapidly changing in their demographic composition. 
In most cities, ethnic profiles are shifting, poverty is 
becoming more decentralized, the suburbs are aging, and 
commutes are lengthening. Accurate demographic and economic 
data are necessary to understand local trends so that 
policymakers can adequately manage and plan the various 
services they offer. The social welfare of our citizens rests 
on large part on the ability of government officials, as well 
as public interest groups and local communities, to meet these 
challenges with informed policies. How and to what degree 
policymakers apply census data determines how effective the 
programs are. Further, coordination among neighborhoods, 
cities, counties, and regions promises smart financing, 
successful planning, smooth adjustments to change, and fewer 
challenges in the future. Undeniably, those that utilize the 
information provided by the Census Bureau will outperform those 
who rely on guesswork.
    Proper urban planning involves consideration of the area's 
economic base and population demographics. The Census Bureau 
provides such essential information through periodic censuses 
and ongoing surveys. The new American Community Survey [ACS], 
provides long-form characteristic data annually. Additionally, 
the Bureau is developing new data products to support the 
decisionmakers through the Longitudinal Employer/Household 
Dynamics Program, which produces regularly updated workforce 
job and location indicators for each partner State.
    I am eager to hear from our first panel about these 
programs. We welcome remarks from the Honorable Charles Louis 
Kincannon, Director of the U.S. Census Bureau, and Deputy 
Assistant Secretary Thomas Dowd of the Employment and Training 
Administration at the U.S. Department of Labor.
    Our second panel of witnesses fully recognizes and will 
discuss the importance of census data for near and long-term 
planning. First, we will hear from Mr. Marc Morial, president 
of the National Urban League; second, we will hear from Mr. 
Paul Farmer, the executive director and chief executive officer 
of the American Institute of Certified Planners and the 
American Planning Association; and, third, we will hear from 
Mr. Mitchell Silver, the deputy director of long-range planning 
in the District of Columbia's Office of Planning. Finally, we 
will hear from Dr. Audrey Singer, a fellow that focuses on 
immigration issues at the Center on Urban and Metropolitan 
Policy of the Brookings Institute.
    I look forward to the expert testimony and our 
distinguished panel of witnesses today. I want to thank you for 
your time, and I appreciate the efforts that you are putting 
forward to participate today.
    [The prepared statement of Hon. Michael R. Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T4298.001
    
    [GRAPHIC] [TIFF OMITTED] T4298.002
    
    Mr. Turner. I would like to now yield to Mr. Shays for any 
comments.
    Mr. Shays. Thank you, Mr. Chairman. Thank you for holding 
these hearings.
    I think that it is very clear, at least in my part of the 
country, that we are seeing folks consider moving back into our 
urban areas. It is very exciting. And they are coming back 
because that is where you are starting to see restaurants open 
up, you are seeing cultural activities expanded.
    I had a young woman in a more suburban rural part of my 
district who is a reporter for a newspaper. I asked her where 
she lived; and she said, I live in Stanford, which was the 
opposite end of my district. Now, the district is only 35 
miles, but still it is the opposite end. And I said, why are 
you there? She said, because Stanford is a cool place. People 
have moved back. You have the theater. You have the arts. You 
have lots of restaurants and a lot of young kids, frankly, who 
are having a great time at night, and older folks as well.
    I would also just comment that you have a wonderful panel 
of witnesses, and I thank them all for participating. I would 
say to those who are in the panel and to the audience that the 
chairman of this committee has done an extraordinary job to get 
this Republican Congress to start to focus in on urban areas 
and what's happening in our cities. And he has not only the ear 
of the Speaker but he has the ear of the other leadership and 
he has the respect of all our colleagues. He's done in just a 
short period of time what I hoped would have happened years 
ago, and I congratulate him, and I just think that it's 
terrific that you all are here for this hearing.
    Mr. Turner. Thank you.
    We will now start with the witnesses. Each witness has 
kindly prepared written testimony which will be included in the 
record of this hearing. Witnesses will notice that there is a 
timer with a light at the witness table. The green light 
indicates that you will begin your prepared remarks, and the 
red light indicates that your time has expired.
    It is the policy of this committee that all witnesses be 
sworn in before they testify, so if you would please rise and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Turner. Let the record show that all witnesses 
responded in the affirmative.
    Mr. Kincannon, we are going to begin with you.

 STATEMENTS OF CHARLES LOUIS KINCANNON, DIRECTOR, U.S. CENSUS 
    BUREAU; AND THOMAS M. DOWD, DEPUTY ASSISTANT SECRETARY, 
  EMPLOYMENT AND TRAINING ADMINISTRATION, U.S. DEPARTMENT OF 
 LABOR, ACCOMPANIED BY TONY DAIS, CHIEF, OFFICE OF EMPLOYMENT 
    SERVICES, EMPLOYMENT AND TRAINING ADMINISTRATION, U.S. 
                      DEPARTMENT OF LABOR

              STATEMENT OF CHARLES LOUIS KINCANNON

    Mr. Kincannon. Good morning and thank you, Mr. Chairman. I 
want to thank you and Mr. Shays and Ranking Member Clay and the 
whole Subcommittee on Federalism and the Census for the 
opportunity to testify this morning.
    The Census Bureau provides comprehensive and in-depth 
statistics for cities and communities throughout the United 
States. The 2010 Decennial Census Program includes the 2010 
Census and the American Community Survey, and it is the 
foundation for the Nation's data infrastructure and the 
principle denominator of our population statistics.
    Data from the decennial census are used to detect potential 
opportunities for social and economic development, and 
particularly this is true in urban areas. These data are a 
rich, consistent source of information that may be used with 
other information including the economic census. By using data 
from both the economic census and the decennial census, an 
entrepreneur, a business owner, a municipal government can 
provide a profile with rich detail to encourage investors.
    In addition to the decennial and economic census, the 
Census Bureau also collects other data, providing information 
about a range of topics from public finances to housing 
conditions. With these surveys, cities can assess their 
performance in key policy areas such as housing and education 
against other cities in their State as well as the Nation. Yet 
we also know that city planners are facing increasing demands 
for more timely data to respond to rapidly changing needs.
    The Longitudinal Employer-Household Dynamics program [LEHD] 
as we refer to it, will help cities and communities as they 
confront 21st century economic and social needs. LEHD is based 
on a voluntary partnership between State labor market 
information agencies and the Federal Government. Currently, 38 
States have entered into partnerships and 27 States are 
actually operational in the program; and an agreement with the 
State of Ohio, I am happy to report, is in the works.
    In addition, the Census Bureau is also working with Federal 
agencies, most notably the Department of Labor's Employment and 
Training Administration and the Bureau of Labor Statistics. 
Without such cooperation we would not be able to report on our 
successes to date. The States supply administrative records. 
The Census Bureau merges these records with demographic data to 
produce key labor market measures such as employment, hiring, 
separations, job gains and losses, turnover, and earnings over 
time by industry, age, gender, and county. These Quarterly 
Workforce Indicators measure the performance of the local 
economy and answer questions such as what are the local high-
growth and high-demand industries?
    In addition to the Quarterly Workforce Indicators and other 
local labor market information, the Census Bureau is working 
with several States as it develops a pilot Local Labor Market 
Mapping program funded by the Employment and Training 
Administration. The mapping tool will show where workers live, 
their workplace destinations, transit corridors, schools and 
day care centers, and how different industries are represented 
within a particular location.
    They say a picture is worth 1,000 words, and we think these 
maps are a powerful planning asset that can literally show the 
relationship between jobs and workers, where they work and 
where they live, the need for better transportation routes, and 
many other facets of a rapidly changing economy. The mapping 
tool, along with the Quarterly Workforce Indicators and other 
local workforce information from LEHD, supports a range of 
policy and decisionmaking needs as no other data product has. 
Workforce Investment Boards, local planners, Federal agencies, 
and other analysts are using LEHD data now to determine how 
local economies are being redirected and reinventing, and how 
the local workforce is responding to these changes.
    The LEHD program will provide accurate and timely data that 
will empower local decisionmaking and improve the quality of 
services and opportunities for millions of Americans.
    Thank you, Mr. Chairman; and I look forward to answering 
your questions.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Kincannon follows:]

    [GRAPHIC] [TIFF OMITTED] T4298.003
    
    [GRAPHIC] [TIFF OMITTED] T4298.004
    
    [GRAPHIC] [TIFF OMITTED] T4298.005
    
    [GRAPHIC] [TIFF OMITTED] T4298.006
    
    [GRAPHIC] [TIFF OMITTED] T4298.007
    
    [GRAPHIC] [TIFF OMITTED] T4298.008
    
    [GRAPHIC] [TIFF OMITTED] T4298.009
    
    Mr. Turner. Mr. Dowd.

                  STATEMENT OF THOMAS M. DOWD

    Mr. Dowd. Mr. Chairman, I am pleased to have the 
opportunity to testify regarding the Employment and Training 
Administration's experience using census data. ETA views census 
data as a vital tool in many aspects of our work, such as in, 
one, formula funding and State planning; two, workforce and 
economic development planning; three, research and evaluation; 
and, four, targeted population initiatives.
    At ETA, we strive to understand the labor market and its 
relationship to the American economy and facilitate the 
preparation of American workers for the jobs of the 21st 
century. With a $10.6 billion request for fiscal year 2006, ETA 
is committed to administering programs that have at their core 
the goals of enhanced employment opportunities and business 
prosperity. These programs include those authorized by the 
Workforce Investment Act of 1998 [WIA], trade adjustment 
assistance, unemployment insurance, and apprenticeship 
programs.
    It is important to note that WIA attempted an overhaul of 
the Nation's public workforce investment system, and in the 
past 5 years we have made good progress toward that end. The 
administration has proposed significant reforms to further 
improve WIA by increasing flexibility, reducing overhead, and 
strengthening the One-Stop Career Center System, among others.
    The funding and governance provisions of WIA provide the 
basic framework for the overall public workforce investment 
system and the basis for planning WIA services at the State or 
local level. This planning is dependent upon updated population 
data information for effective management, increased 
accountability, and better results.
    WIA requires that decennial census data be used as the 
basis for factors relating to disadvantaged adults and 
disadvantaged youth in the statutory formula used by the DOL to 
distribute adult and youth activity program funding among 
States and used by States to distribute funding among local 
workforce investment areas.
    Decennial census data is also used to determine the funding 
levels among WIA Native American Comprehensive Services and 
Supplemental Youth Service programs and partially to distribute 
funds among WIA National Farmworker Job Training programs as 
well.
    ETA also relies on annual population estimates produced by 
the Census Bureau as part of the statutory formula used to 
distribute funding among States for the Senior Community 
Service Employment program.
    Under title 1 of WIA, Governors are required to submit a 
strategic 5-year State plan in order to receive funding under 
the WIA Adult, Youth, Dislocated Worker, and the Wagner-Peyser 
programs. As a foundation for these strategic plans, States are 
encouraged to provide a detailed analysis of the State's 
economy, the labor pool, and the labor market context, using a 
variety of data elements from Census Bureau data and 
supplemental labor market reports.
    ETA is leading an effort to encourage States and local 
communities to ensure that their workforce systems are demand 
driven. Meeting the demands of business requires a solid 
knowledge of workforce and demographic trends. Therefore, 
census data is a key for States and local areas, assisting them 
in economic planning, program management, and performance 
accountability.
    The Census Bureau's Longitudial-Employer Household Dynamic, 
LEHD, program, which the director mentioned, for which the 
President has requested funding for fiscal year 2006 has as its 
cornerstone the Local Employment Dynamics initiative, LED. The 
LED initiative is a partnership between the Census Bureau and 
38 States, representing more than 80 percent of a population of 
the U.S. Partner States supply quarterly unemployment insurance 
worker and business records and State administrative records to 
the Census Bureau, which in turn generates quarterly local 
workforce-related data. This new data helps local policymakers, 
workforce investment boards, job seekers, education and 
training institutions and employers better understand labor 
markets at the State, county, and metropolitan area levels in 
order to make informed decisions.
    As part of this LED initiative with ETA funding support, 
the Census Bureau is starting a pilot project on dynamic 
mapping involving 12 States that will demonstrate the 
geographical relationships between where people live and where 
they work. This project has tremendous potential for economic 
development, the deployment of workforce services, and the 
design of family and community services.
    Market-responsive Education and Employment Training System 
[MEETS], is another DOL initiative that uses official industry 
classifications and Census Bureau LED Quarterly Workforce 
Indicators to define and analyze employment dynamics and target 
industries.
    The Census Bureau offers diverse data of high quality which 
ETA relies on for research and evaluation purposes. Currently, 
ETA has an interagency agreement with the Census Bureau to 
support the development and administration of a supplement to 
the Current Population Survey to address unemployment insurance 
issues, particularly how unemployed individuals utilize the UI 
benefits system.
    One initiative that has been very successful in leveraging 
the power of census data to better implement its objectives is 
the Limited English Proficiency [LEP], census data project. ETA 
worked with the Census Bureau to acquire specific data on LEP 
populations. This specialized information helped States and 
local areas determine the size, primary languages, and 
characteristics of the LEP population in their area and enhance 
their level of responsibility for providing meaningful access 
to workforce services.
    ETA also relies on specialized population reports developed 
by the Census Bureau to formulate policies and initiatives 
around other special populations that more and more are 
becoming integral parts of the labor force. Reports on older 
workers, Hispanics, immigrants, and Asian Americans form the 
foundation for the development of workforce policies and 
initiatives that contribute to ensuring that America's labor 
force remains competitive in the 21st century.
    Mr. Chairman, this concludes my testimony; and, again, I 
appreciate an opportunity to appear before you this morning and 
this committee. And I am prepared to respond, along with my 
colleague here, to any of your questions.
    [The prepared statement of Mr. Dowd follows:]

    [GRAPHIC] [TIFF OMITTED] T4298.010
    
    [GRAPHIC] [TIFF OMITTED] T4298.011
    
    [GRAPHIC] [TIFF OMITTED] T4298.012
    
    [GRAPHIC] [TIFF OMITTED] T4298.013
    
    [GRAPHIC] [TIFF OMITTED] T4298.014
    
    [GRAPHIC] [TIFF OMITTED] T4298.015
    
    [GRAPHIC] [TIFF OMITTED] T4298.016
    
    [GRAPHIC] [TIFF OMITTED] T4298.017
    
    [GRAPHIC] [TIFF OMITTED] T4298.018
    
    Mr. Turner. Thank you both.
    I have several questions both about the methodology that 
you approach and how your two agencies work together, the 
relationship between the data and your administrative processes 
in State and local governments. But I wanted to start first 
with a topic that goes to the title of the hearing and really 
what we are seeing as urban trends, and I brought with me the 
two local newspapers from my district on Friday April 15th that 
is about the census data that was released. This headline in 
the Cincinnati Enquirer is ``Suburbs Boom But Core Shrinks,'' 
and then the other one in the Dayton Daily News is ``Population 
Migration: Ohio's Metropolitan Counties are Experiencing 
Population Migration.''
    In fact, the Census Bureau spokesperson says that one of 
the things we've certainly observed is the rapid growth in the 
so-called ex-urban counties, Census Bureau Spokesperson Robert 
Bernstein said of counties that are fast developing outside of 
an urban core. They are among the leaders of our list of 
fastest-growing counties.
    And the Cincinnati Enquirer indicates that one of the 
counties, Warren County, OH, is among the U.S. leaders in 
population growth. Warren County is in my district.
    And then the Dayton Daily News, which is the other paper, 
reports Dayton is having the decline in overall population of 
the urban core. Both reflect the changes that we are seeing 
throughout Ohio. The migration of population in areas where we 
are not seeing population growth results in some winners and 
some losers and a weakening of our tax base that sometimes 
supports our poverty intervention programs and our ability to 
deliver social services. Over a period of time, migration and 
development of areas that are the ex-urban counties are going 
to have an interesting impact on our ability to look at urban 
redevelopment.
    Both from a labor statistics perspective and from a Census 
Bureau perspective, I would ask if you would speak just a 
moment about the issue of development of ex-urban counties and 
what you are seeing both in job migration and population 
migration. Mr. Kincannon.
    Mr. Kincannon. Well, thank you, Mr. Chairman. It is an 
interesting phenomenon and a very complex phenomenon.
    I live in what was once an ex-urban county, Loudon County. 
It feels to me as though it is beyond being ex-urban, even 
though it is some distance from the core. But as population has 
shifted to outlying counties, as people seek affordable housing 
and the kind of lifestyle that they wish to lead, then that 
also means that job centers grow as a consequence of that. That 
has certainly been the case in Loudon County.
    Twenty years ago, it was a bedroom suburb, but in the last 
20 years some important centers of employment have developed 
there. And as I am sure you have done many times, going out the 
Dulles corridor, the former roadway through farmland has become 
an artery going past major employers that are significant in 
the entire metropolitan area, both in Fairfax County and in 
Loudon County.
    Now I spend my weekdays in the District of Columbia, and I 
observe that neighborhoods have gone, in my lifetime in this 
area, through various changes. What I observe happening in some 
neighborhoods now is quite a change in the population. People 
making a lifestyle choice, don't want to commute 40 miles into 
a job in the urban core. They have a job that they like in the 
urban core or sometimes even in the suburbs, but prefer the 
life of the city.
    As Representative Shays said, the opportunities for 
entertainment, for social life and so on are appreciated now in 
the cities more than they were perhaps 25 or 30 years ago. So 
there is another turnover of population happening in core 
cities.
    I have seen some of it happening in Dayton as well, 
although I am not as close an observer of Dayton as I am in 
Washington. But the converting of old office buildings or 
retail space into lofts or other kinds of condominium has made 
a big difference in Washington as it has in Dayton, and the 
downscaling of the intensity of housing in some cases in 
Washington neighborhoods where housing had been converted from 
single-family to multi-unit in some cases now are being 
converted back to single families. So that change is quite 
interesting and makes a positive figure for urban cores as well 
as for ex-urban counties.
    What remains to be coped with in many cases is 
transportation. Still, people choose their jobs on one basis 
and their residence on another basis. And getting them from 
point to point requires sustained commitment of the public 
sector to make sensible investments in productive and efficient 
transportation.
    Mr. Turner. Thank you.
    Mr. Dowd.
    Mr. Dowd. Yes, thank you.
    From a labor perspective, it is kind of interesting. Just 
right here in our own local commuter shed, like many of us 
commuting into the District from Maryland and Virginia, but you 
might note there is also a population commuting the other 
direction, going out to work in our neighborhoods. And it is 
interesting, that is, from a labor perspective again, we hear 
and see where older workers now reaching retirement want to 
scale down from their homes out in the ex-burbs. They want to 
move back into a more urban setting where they have easy access 
to culture and good dining and all the things that they want to 
enjoy in their retirement years and not have to cut the lawn 
and take care of those things as well.
    So you have that phenomena going on; and we want to look 
at, well, how do we in fact then understand those demographics? 
Because that older worker population is potentially the new 
workforce in some of these urban areas that are returning back 
into urban areas.
    So our interests, and particularly in working with State 
and locals, is ensuring that they have the right data in order 
to be able to understand the demographics both in terms of the 
job skills required by the employers so they can in fact bring 
the three components together that we think are essential: 
education, economic development, and employment training--the 
three Es, the power of three Es, E-cubed we call it--so that 
you can use the energy of all three of those to more 
effectively understand this dynamic in terms of that commuter 
shed and which way it is going and who is involved in that flow 
so we can properly train them and then have a prosperous 
economy continue to take place.
    Mr. Turner. We are seeing in southwest Ohio there is a 
trend of commute between and sharing of jobs and economy 
between Dayton and Cincinnati that perhaps has not been at the 
level that it is now. The commute between Dayton and Cincinnati 
is 30 to 45 minutes, which, I tell many people in southwest 
Ohio, is, in D.C., the commute over a bridge. So, in Ohio, 
people are able to spread out over a much greater geographic 
area.
    Mr. Kincannon, the news articles that I just referenced 
were talking about the census data as it looked to county 
populations. And my understanding is that your annual estimates 
don't break down further beyond the county level. Is that 
correct? Or to what extent is it applied to smaller 
governmental units or territories?
    Mr. Kincannon. We make every year estimates at the 
national, State, and county level based principally on 
administrative records about births, deaths, and net migration, 
internal and international. Below the county level, we do make 
estimates for functioning local governmental units, but the 
administrative records do not well support that process. So we 
use housing unit basis as estimating, carrying down the county 
population, which is the controlled total, to local areas. 
That's not as robust a method, but it is the main option open 
to us. So we use the latest information about housing units 
from the last census, corrected by new construction, 
demolition, vacancy information, and the density of population 
available either from the last census or from the average 
household size. And eventually, as the ACS becomes available 
for smaller areas, we will have that information about 
household size, and that will be used to carry down--continue 
to carry down estimates for subcounty areas.
    Mr. Turner. My next question, if you could just embellish a 
bit the road you were going down, which is the description of 
how you come up with those annual estimates. You and I had a 
discussion where I was looking at the estimates of the Census 
Bureau and trying to disprove them by looking to actual water 
shutoffs within the city of Dayton to look for population and 
in fact was unable to substantiate the estimates that the 
Census Bureau was producing, which in fact turned out to be 
very accurate when the census for 2000 was complete. Could you 
speak a little bit more about that process that you go through 
in putting those estimates together?
    Mr. Kincannon. Yes, Mr. Chairman.
    I won't go more into the procedure, unless you desire that 
I do so. I can go a little bit further but not too far into the 
techniques used by the Census Bureau. But the process has other 
and broader components that are quite important.
    There is a Federal, State cooperative program on population 
estimates where each Governor, and in the case of D.C. the 
Mayor of the District of Columbia, designates people to serve 
in this program. And we meet twice a year regularly, discuss 
what's going on, get new information from the localities, the 
States and the counties and try to make sure that we have a 
good mutual communication.
    When we do make an estimate, whether it is at the county or 
the local government level, if there is disagreement by the 
locality, there is a process or procedure by which the highest 
elected official or the highest executive official of that 
jurisdiction can write to the Census Bureau. We put a time of 
180 days or something, a scope to challenge that, and then 
submit information as the basis for that challenge. And we will 
review that together with the local officials to see if we can 
make corrections.
    Mrs. Maloney at the last hearing brought up the fact that 
New York City challenged the last estimate, and we agreed to a 
correction based on the data they submitted of an additional 
23,000 persons. I still think an error of 23,000 persons out of 
8 million is a pretty good record. And if the local officials 
couldn't do a better job of estimating, I would be very 
surprised. But that process is alive and well and much in use. 
So that's an important way to get the feedback on it.
    Mr. Turner. Mr. Dowd, you talked in terms of requiring 
local governments, State, counties in their processes with the 
Workforce Investment Act to utilize census data as they go 
forward with their planning processes. Are you seeing gaps in 
data? You have been very active in working with the Census 
Bureau, in addition to providing funding and advocating for 
what your needs are. But do you currently see gaps in the types 
of data that would be most helpful in planning for local 
communities?
    Mr. Dowd. It's kind of interesting in that there is 
actually a lot of data. And I always like to say, even though 
my colleague might not find this very amusing, that data is the 
plural of anecdote. So the fact of the matter is there's lots 
of it, and I'm not sure we always use it very effectively and 
understand through the analysis what exactly is going on. The 
one thing we're trying to encourage State and locals to do a 
better job of is to be able to make data-based decisionmaking 
predicated on good analysis and labor market information.
    One of the things we did is an environmental scan, and I 
would be happy to leave this copy with you, if you would like. 
It can also be found online at http://www.doleta.gov///
programs/pdf/environmental-scan-report-final.pdf. It's really 
designed to help the local and State workforce system examine 
the variety of workforce information sources. And just taking a 
quick look here in the front, you know, we worked with 
certainly the Department of Labor's Bureau of Labor Statistics 
and the Census, SBA, Education, National Center for Education 
Statistics, private sources such as Manpower, National 
Association of Colleges, labor market information from all the 
States, economic development agencies, EDA, and others. So we 
try to gather as many of the sources as possible to in fact 
ensure that there won't be gaps and there won't be points in 
time and space with regards to ensuring that you are looking at 
the full picture.
    Now can there be more data? I suppose so. And cut different 
ways. But to be perfectly honest, there is a lot of data 
already there, and I think it's, frankly, probably a better use 
by all of us.
    Mr. Turner. From what you have seen in working with local 
communities, can you give us some examples of best practices or 
some communities that are using the workforce planning process 
and the data effectively?
    Mr. Dowd. Yes. One of the things I would like to share with 
you, Mr. Chairman, is the President's High-Growth Job Training 
Initiative in which we are trying to bring together, as I 
indicated at the outset, the local area, and that includes 
cities, obviously, the economic development of that area, the 
different entities, and the employment training system through 
a model approach that looks for solutions on how to be more 
effective in using the data to support a program design that 
can meet the training needs in that area. We have had several 
of them, and I will be happy to leave that information with you 
as well.
    Specifically in the health care field, for example, we have 
a grant with the John Hopkins health system that brought that 
health care system with the local employment training system 
along with the local folks so they could design a program that 
was really very effective. And I think that's the key, is 
having good data, but then having the right partners put it 
together and use it together. Usually what you get is one 
entity coming to you with one proposal saying, we could use a 
couple million dollars; and then another one comes in the other 
door and says, well, we could use a million and a half; and 
then the other one comes a week later and says we could use $2 
million. They've never talked to each other, but they are all 
coming out of the same community, and some of them are using 
the same data and some of them are using different data. We've 
tried to encourage them to use it together and then to come 
together.
    Like I said, I would be happy to share with you some very 
specific projects that we've funded I think you will find very 
interesting.
    Mr. Turner. Excellent.
    Mr. Kincannon, when you talk about the Longitudinal-
Employer Household Dynamics program, part of your testimony 
discussed the partnership with the States and their quarterly 
unemployment insurance wage records. Are there other 
administrative partnering arrangements that perhaps you don't 
have opportunities for that you see in the future would be 
helpful, data that is out there that you think would make both 
your processes more accurate or easier that, through expanding 
those partnerships might assist you?
    Mr. Kincannon. Yes, Chairman. There are a number of areas. 
The LEHD--and you can understand why we usually refer to it as 
the LEHD--the whole title is an essay practically--it's a work 
in progress. And it does have the unemployment insurance 
records now for 38 States, and that's an important step 
forward.
    But, for example, the Unemployment Insurance Act expressly 
excludes Federal employees. That's an important factor in your 
district. It's an important factor in the Washington area. And 
we are working with the Office of Personnel Management to make 
sure that we have the corresponding records that will permit us 
to show the same kind of information that's so critical in 
those areas.
    Mr. Turner. Mr. Dowd, in the Market-responsive Education 
and Employment Training System and looking at the Census 
Bureau's LED Quarterly Workforce Indicators, you talk about 
looking at dynamics in targeted industries. How are those 
selected? What is your focus in looking at the industries that 
you are going to take a more in-depth look at?
    Mr. Dowd. One of the things that we've tried to stress very 
carefully with our State and local partners and our involved 
public workforce system is that it's a fact that employment is 
generally local. Most people seek a job and get hired locally. 
There may be that person that applies in Philadelphia and gets 
hired in Los Angeles, but for the most part people get hired 
locally. And so, therefore, it's very important for workforce 
developers and working with economic developers and educators 
to really understand what's going on in their communities today 
and in the future with regards to industry. Therefore, we've 
not tried to pick winners and losers.
    What we've asked the local workforce system to do is to 
examine all the data in order to understand what are those 
high-growth industries, whether they be health care or 
information and technology, geospatial, automotive, 
transportation, to examine them so we can understand and they 
can understand how they can properly then adjust their training 
model, their training plan to in fact really add value to the 
economic development proposition of making that community 
vital. And I think that's key to what's continued to happen, 
and it happens locally.
    Oftentimes, people look to the Federal Government and think 
that we somehow have the solution for the whole country, and if 
we could just give them a box and they can open it up and put a 
kit together, everything would be solved. But we really are far 
from that local economy and can't begin to really understand 
the nuances and the complexities of where that economy is 
moving locally, and we want them to be able to understand that. 
That's what it means to be a demand-driven workforce system, to 
understand where the economy is today and where it's headed for 
tomorrow.
    Mr. Turner. OK. Well, with that, I will conclude my 
questions and ask if either of you gentlemen have anything else 
you want to add in closing with respect to your subject matter 
or anything that the other has commented upon?
    Mr. Kincannon. Mr. Chairman, we did bring a little example 
of the map that was developed with ETA's support funding for 12 
States. If that would be of interest to you and you have the 
time, we would quickly show that----
    Mr. Turner. Please.
    Mr. Kincannon [continuing]. With a little luck on the 
technology side----
    Mr. Turner. Excellent.
    Mr. Kincannon [continuing]. We are participating. We have 
12 States. We produced a prototype map for Minnesota to begin 
with, and we are now in the process of piloting with the other 
11 States, and I am going to show you one of those States. This 
is a portion of Virginia. This is in the city of Richmond, the 
area of Richmond; and we can use this map to see where the 
workers within an area live. That is, draw a circle around an 
area of employment and then see where those workers live. So 
this is a freehand drawing.
    There's a small circle you can see in there, although the 
roads look almost as freehand as the area. For the people who 
work in that area, we will next see where they live, and you 
can see how widely disbursed they are in the Richmond area. 
This is not an unusual pattern, but this also will permit 
looking at vectors of transportation so that it can provide 
real information to local officials and to businesses about how 
they plan what they're doing to meet the needs to get workers 
to jobs and jobs to workers.
    That's the simple part of the demonstration, and it gives 
you an idea. If you can actually draw a free-hand circle on a 
map and get this kind of information, it can be very powerful 
and useful and do it in a hurry.
    Mr. Turner. Thank you.
    Mr. Dowd. I would only add, Mr. Chairman, that again we 
fully support the mapping. And one of the reasons is as 
interesting as well. Let's say the employer here in Richmond 
decides that I don't have the right workforce here. I am going 
to have to go to North Carolina or to Texas.
    Well, the fact of the matter is he can identify what 
community colleges he has in this community, how many graduates 
do they put out, and are they in fact in the automotive fields, 
what other kinds of educational providers are there and 
training providers? Begin to see before he moves away that he 
actually may have resources right there connecting with the 
education community and save himself a whole lot of money and 
not have to pick up and move. That also helps to eliminate 
workers' dislocation.
    We may be able to look and see what are the industries here 
that are actually on the decline and what is the workforce 
going to be able to do in terms of changing and rescaling the 
industries that want to come there.
    So it is a really complex process, but it can tell us so 
much. And I think we are really only beginning to harness this 
in a really good way for the public workforce system and for 
the Nation as a whole.
    Mr. Turner. Well, thank you. I thank you for your time, and 
I thank you for the insight of the work that you do and how it 
is applied and makes a difference in our communities. Thank 
you.
    We will take a 5-minute recess as we set up for our next 
panel.
    [Recess.]
    Mr. Turner. I see you are already standing, so we will come 
back to order. I will swear you in, and then we can begin your 
testimony. So if you would raise your right hands.
    [Witnesses sworn.]
    Mr. Turner. Let the record show that all witnesses have 
responded in the affirmative.
    This panel consists of the Honorable Marc Morial, the 
former mayor of New Orleans, president, National Urban League, 
currently; Paul Farmer, executive director and CEO, American 
Planning Association, American Institute of Certified Planners; 
Mitchell Silver, deputy director, long range planning, District 
of Columbia Office of Planning; and Audrey Singer, immigration 
fellow, metropolitan policy, Brookings Institution. I thank you 
all for your time and for being here.
    We will begin with Mayor Morial.

 STATEMENTS OF MARC MORIAL, PRESIDENT, NATIONAL URBAN LEAGUE; 
  PAUL FARMER, EXECUTIVE DIRECTOR AND CEO, AMERICAN PLANNING 
ASSOCIATION/AMERICAN INSTITUTE OF CERTIFIED PLANNERS; MITCHELL 
 SILVER, DEPUTY DIRECTOR, LONG RANGE PLANNING, D.C. OFFICE OF 
  PLANNING, ACCOMPANIED BY BARRY MILLER, ASSOCIATE DIRECTOR, 
  ``COMPREHENSIVE PLAN'', D.C. OFFICE OF PLANNING; AND AUDREY 
SINGER, IMMIGRATION FELLOW, METROPOLITAN POLICY, THE BROOKINGS 
                          INSTITUTION

                    STATEMENT OF MARC MORIAL

    Mr. Morial. Thank you very much, Mr. Chairman and members 
of the committee. I am pleased to be with you. And I certainly 
want to thank Congressman Turner, a fellow former mayor, for 
inviting me to share my thoughts with you on the importance of 
the census data and the work we do at the National Urban League 
to empower American cities.
    I have prepared these written remarks which are going to be 
obviously placed in the record, so I just wanted to take a few 
moments to make some general comments about how the Census 
Bureau and how census data has assisted our work at the 
National Urban League and then offer some thoughts about how 
census data can be improved and also how it can be better used 
in the future.
    Very importantly, we use the census data in a number of 
ways. Crucially, each year we publish this report called the 
State of Black America Report. An integral component of this 
report is an index that we call the Equality Index. It's the 
second year that we've done the Index, and the Index is done in 
collaboration with an econometric forecasting firm in 
Philadelphia called Global Insights. The Equality Index, which 
is based substantially on census data, measures over 100 
indicators with respect to Black Americans and White Americans 
and compares the two. The idea for the Index is to give the 
Nation, to give the people in our organization, to give people 
who are concerned a more accurate statistical comparison 
between the status of Black Americans and the status of White 
Americans in the areas of education, economics, health care, 
what we call social justice, and a final category called civic 
engagement.
    The report that we published this year indicates that 
African Americans have a status of 73 percent that of White 
Americans on the overall index. Crucially and significantly on 
the economic index, which I think is one of the most important 
indexes, the status of Black Americans relative to White 
Americans is about 57 percent. Without the census data, we 
would be unable to do this report. Without the census data, we 
do not think we could do our very important work in informing 
the American public about issues as it relate to America's 
city, as they relate to Americans, African American and other 
communities of color, and also to inform the Nation about the 
progress we have made and the challenges yet left to be done in 
the important area of equality and opportunity.
    Second, we use census data on an overall basis as a part of 
our work at the National Urban League Policy Institute, which 
is headquartered here in the Nation's Capital. On an ongoing 
basis we release such reports as quarterly jobs reports, and 
we've done a wide variety of work over the years.
    Third, the National Urban League Policy Institute has had 
the very special privilege and opportunity to serve as a census 
information center over the years, to be a part of the effort 
to disseminate and receive information about the census for 
people who we work for each and every day.
    A couple of very important things, comments I would like to 
make. No. 1, we applaud and certainly urge this committee and 
the Congress to support the American Community Survey, the 
annual survey that the Census Bureau has begun to get more up-
to-date information. We think that the ASC is very important 
and will assist our work in a very significant way. And we 
think that while the current survey as it is envisioned is an 
excellent start, I think that the Census Bureau should be given 
the resources, the prodding, and the support to expand that 
survey so that it includes as much data as possible on 
communities large and small. And the reason is self-evident, 
that the changing demographics, the trends of immigration, the 
movement of people to and away from jobs and away from 
communities that may be challenged by job losses are so fast 
and rapid that looking at information only every 10 years, in 
some cases every 5 years, is not the most effective way for 
policymakers, planners to have tools and to have information 
they need to be effective in the work that they do.
    Second, I believe that the Census Bureau and those of us 
that understand the importance of census data need to focus 
more on what census projections mean about the future of the 
country and how projections about the future of the country can 
inform housing, transportation, and economic policy at the 
Federal, State, and local level.
    Let me give you an example. One of the things we've been 
doing at the National Urban League is talking a lot about the 
demographic changes that are occurring in the Nation in the 
first half of the 20th century. The change in America to a 
Nation that does not have a majority ethnic group and what that 
means for our economy, what that means for our politics, what 
that means for the social health of our Nation, and what 
challenges are inherent therein.
    It's been very interesting for me to talk to business 
leaders across the Nation who are looking at these demographic 
trends in terms of what it means for their marketing, for their 
merchandising, for their changing consumer mix. I think that 
more effort must be given to illuminating the excellent 
projections that the Census Bureau promulgates to assist 
policymakers, to assist business leaders and the like.
    My third important point is that census data, while very 
important, is not easy for the average person or even the 
average decisionmaker to understand and to manipulate. And 
while it is sometimes the province of planners, sometimes 
people may look at the information as a gobbledygook of 
statistics and numbers, the fact of the matter is, is that the 
information gives us a significant tool in making important 
public policy decisions.
    So what do I mean? We must support efforts by the Census 
Bureau, and we need to develop the kind of partnerships 
necessary to allow information that the Census Bureau 
promulgates to be put into formats and to be communicated in a 
way that makes sense to the average American citizen, makes 
sense to the average elected official, makes sense to the 
average business leader. With that, this very important 
information will be an even more valuable tool in decisions 
that have to be made.
    So I'd just add those comments to build on the written 
testimony that I provided with the hope that the summation of 
it is that we support an expansion of what the Census Bureau is 
doing, the development of new tools, the development of 
information which is more timely, the efforts that need to be 
undertaken to disseminate this information most significantly.
    And, finally, we think that, for an organization like ours, 
which really sought in developing this Index on how we could 
take a body of information which was so important and put it in 
a way that the average person would understand, that 
journalists would understand, that would give us a way to talk 
about it in a fashion that people could understand but also in 
way that we think can inform policymakers.
    So, Mr. Chairman. Thank you for your time. I would be happy 
to answer any questions.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Morial follows:]

    [GRAPHIC] [TIFF OMITTED] T4298.019
    
    [GRAPHIC] [TIFF OMITTED] T4298.020
    
    [GRAPHIC] [TIFF OMITTED] T4298.021
    
    Mr. Turner. Mr. Farmer.

                    STATEMENT OF PAUL FARMER

    Mr. Farmer. Good morning, Chairman Turner, Ranking Member 
Clay and members of the subcommittee. I am Paul Farmer, 
executive director of the American Planning Association. Thank 
you for holding this important hearing on the changing face of 
urban America and the critical role of Federal data in making 
sound decisions. Mr. Chairman, thank you for your strong 
leadership in Congress on behalf of urban communities.
    I appear today both as CEO of the Nation's oldest and 
largest association dedicated to promotion and planning that 
creates communities of lasting value and as a professional 
planner in cities as varied as Pittsburgh, Minneapolis and 
Eugene, OR.
    We live in a time of dramatic change. Cities and regions 
are changing more rapidly now than they have in the last 100 
years. APA recently published a report by Virginia Tech 
professor Arthur Nelson that includes forecasts about future 
growth. He projects that the national population is likely to 
expand in the next 25 years by over one-third to 375 million. 
The Nation must now plan on accommodating 60 million new 
housing units, 50 billion new square feet of nonresidential 
space and another 45 billion square feet of redeveloped 
nonresidential space.
    Nelson projects that half of the development in 2030 will 
have been built since 2000, and $20 trillion will be spent on 
development. The first three decades of the 21st century will 
see more urban development than any comparable period in the 
Nation's history.
    Among planners, there is a growing recognition that public 
investment, not based on reliable data and analysis, 
constitutes a hidden tax in the form of higher cost of 
infrastructure. As planners, we recognize that change is 
inevitable, but decline is not.
    Most major cities in the United States are now growing at a 
modest pace, but experiencing enormous change in the 
composition of that population at the same time data demands of 
new technologies have increased. These dual trends place new 
pressures on Federal data to provide more detailed localized 
information upon a more frequent basis without compromising the 
overall integrity of the data. That's no small challenge.
    Obviously the challenges confronting contemporary America 
are too great and too complex to rely on data that are updated 
every 10 years. ACS data will provide planners with a wealth of 
reliable data that will lead to better plans, better public 
participation and better decisionmaking by local officials.
    Rapid advances in planning technologies coinciding with 
better community data are leading to new tools that improve the 
public's role in planning. Good data are the hidden backbone of 
sophisticated geographic information systems and scenario-
planning software that allows citizens to literally see the 
potential impacts of public policy decisions. Since this data 
have traditionally been and today still remain the single most 
important data resource for planning, it is the gold standard.
    Planners using the economic census, LED/LEHD, are linking 
shifts in industrial sectors and workforce requirements to 
economic development strategies and decisions on infrastructure 
and social services. They are new but vital tools in helping 
cities and their surrounding regions address the frequent 
mismatch in location of jobs versus the availability of 
workforce housing.
    I know the chairman has a special interest in the promotion 
of brownfield redevelopment. I was personally involved in 
brownfield redevelopment in Pittsburgh, Minneapolis and in 
Eugene, and it was quite gratifying to see the once vibrant 
steel mills, green mills and lumber mills all become reborn. 
The Allegheny, Monongahela, Ohio, Mississippi and Willamette 
Rivers all were also reborn and have become far more productive 
these days also. Those successes required plans supported by 
the public, and those plans required quality data.
    GIS has led to more and better thematic mapping and 
exploratory spatial analysis with the resulting improvements in 
public safety and public health by linking census crime and 
health data to computer models and maps.
    However, we continue to confront a problem of using data. 
APA and the Census Bureau are collaborating on training local 
government professionals in the use of availabile data, but 
much more needs to be done.
    APA remains concerned about improving census data 
collection mechanisms and avoiding undercounts for urban areas. 
The issue remains an important concern, given the number of 
Federal programs with aid linked to census population counts. 
APA urges Congress to continue its support of new census data 
products, full funding for ACS implementation, and the 
development of smaller-scale data vital to good local public 
policy decisions. APA also recommends that Congress support 
continued innovation in Federal data development and delivery.
    Last, I would urge that Congress provide new support for 
expanding community planning capacity. While GIS systems and 
scenario planning are becoming more commonplace, there are vast 
disparities in access to these technologies and training in 
their use. Investments in our human capital are critical in an 
increasingly competitive world.
    Thank you for your leadership and the opportunity to appear 
before you today here today. Thank you very much.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Farmer follows:]

    [GRAPHIC] [TIFF OMITTED] T4298.022
    
    [GRAPHIC] [TIFF OMITTED] T4298.023
    
    [GRAPHIC] [TIFF OMITTED] T4298.024
    
    [GRAPHIC] [TIFF OMITTED] T4298.025
    
    [GRAPHIC] [TIFF OMITTED] T4298.026
    
    [GRAPHIC] [TIFF OMITTED] T4298.027
    
    [GRAPHIC] [TIFF OMITTED] T4298.028
    
    [GRAPHIC] [TIFF OMITTED] T4298.029
    
    [GRAPHIC] [TIFF OMITTED] T4298.030
    
    [GRAPHIC] [TIFF OMITTED] T4298.031
    
    [GRAPHIC] [TIFF OMITTED] T4298.032
    
    [GRAPHIC] [TIFF OMITTED] T4298.033
    
    [GRAPHIC] [TIFF OMITTED] T4298.034
    
    [GRAPHIC] [TIFF OMITTED] T4298.035
    
    Mr. Turner. Mr. Silver.

                  STATEMENT OF MITCHELL SILVER

    Mr. Silver. Good morning, Chairman Turner, members of the 
committee. My name is Mitchell Silver, deputy director of long-
range planning for the Office of Planning. I am here to testify 
this morning on how the District uses census data for planning, 
policymaking and dissemination; also to discuss past and future 
trends for the District and the concerns we have regarding the 
U.S. Census Bureau's methodology for the District as it relates 
to population estimates and projections.
    I am also joined by Barry Miller, my associate director of 
the comprehensive planning division, who may assist me in any 
questions that you may ask.
    The U.S. Census Bureau established the State Data Center 
program in the District of Columbia in 1978 to create an 
effective vehicle for the dissemination of data produced by the 
Census Bureau for State and local governments. Users of the 
census data include District and Federal agencies, the business 
community, educational institutions, academics, the media, 
religious and neighborhood groups as well as private citizens.
    The main uses of census data include public policy 
formulation, research, funding for nonprofits, investment and 
marketing decisions, maintaining local tax base, geographic 
information systems, long-range planning and trend analysis. 
The Census Bureau provides the District with the vital 
information on the changes that have occurred in the city over 
the past five decades. This information helps the District 
government develop a basic understanding of these changes and 
assists in the development of policies that best serve District 
residents.
    I want to quickly talk about some of the past trends in the 
District, which I am sure other cities have experienced the 
same throughout the country.
    In 1950, the District reached its peak of 802,000. Since 
1950, however, the District's population has declined to 
572,000 in the year 2000. This represents a 29 percent decline 
over five decades. The steepest decline occurred during the 
1970's when the city lost almost 120,000 residents. While the 
number of residents dropped significantly during the 1980's and 
1990's, the number of households remained relatively constant.
    The principal cause of the District's population decline 
was a substantial decline in household size. In 1970, the 
average D.C. household contained 2.72 residents. In 2000, the 
average D.C. household contained 2.16 residents.
    The census data also illustrate that the District's 
changing role within the rapidly changing Washington region. In 
1950, D.C. had 46 percent of the region's population. In 2000, 
D.C. had 12 percent of the region's population.
    The District of Columbia is in the process of revising its 
comprehensive plan for the first time in 20 years. The first 
step in this process, completed last year, was to develop a 
long-range vision for the city. The tenets of the vision are 
underpinned by census data that illustrate stark and widening 
divides within the city. Despite the District's recent 
prosperity and improved development market, the city has become 
more divided by race, class, education and income over the last 
30 years. The fundamental premise of the city's vision is that 
D.C. must grow more inclusively to thrive and succeed.
    There is a chart that is before you, which is figure 7A, B 
and C in the report. It illustrates the magnitude of this 
divide. The first map shows the concentration of poverty in the 
eastern half of the city, particularly east of the Anacostia 
River, and relative affluence of other areas west of Rock Creek 
Park. The second map shows the divides with respect to 
education; and the third, the correlation between education and 
employment.
    Now, while the District of Columbia uses census data to 
determine past trends, it relies on its own State Data Center 
to forecast future trends. While the Census Bureau uses models 
for the future population change based on assumptions about 
future births, deaths and domestic and international migration, 
the District's State Data Center uses a fundamentally different 
approach to estimating its population, emphasizing the total 
change in population size since the last census, rather than 
demographic components of the change.
    In the report on page 21, figure 8, that figure provides a 
summary of the major changes in population, household 
employment the District projects for the next 25 years. These 
projections show that the city's 2005 population is at 577,000, 
and the District projects that we will grow by 134,000 by the 
year 2030. These figures are based on demographic trends and 
planned and proposed development projects.
    The number of jobs in the city, currently at 742,000, is 
projected to grow to 860,000 by the year 2030. This recent 
growth appears consistent with national and regional trends, 
indicating an increased desirability to live in the city.
    Now, we have some concerns, as I mentioned, about the 
Census Bureau's methodology. Since 2000, the District of 
Columbia has gone on record disputing the U.S. Census Bureau's 
estimates in 2002, 2003 and 2004, as well as the recent 2005 to 
2030 projections released in April 2005. For example, in 1996, 
the Census Bureau projected the District population would 
increase by 100,000 residents by 2025. However, last month the 
U.S. Census Bureau projected that the District population will 
decrease by 117,000 by 2030. In contrast, the District 
forecasts that the city population will increase by 140,000 by 
2030.
    I will offer you six quick examples to discuss that 
discrepancy and why. No. 1, the Census Bureau has historically 
underestimated D.C.'s population. Their 2,000 data 
underestimated the District's population by over 50,000.
    Two, the total school enrollment since 2000 has shown a 
very slight decline after years of steep decline, but not 
nearly at the level suggested by the recent census estimates.
    Three, the number of tax filers in the city is relatively 
stable.
    Four, the city has experienced an increase of 7,000 new 
housing units in the past 4 years, and the number of units 
demolished during this time is approximately 2,000, for a net 
gain of 5,000 units.
    Five, the number of abandoned housing units in the city has 
declined precipitously since 2000, and the vacancy rate is 
significantly lower than it was in 2000.
    Finally, six, the U.S. Census Bureau's methodology is 
designed for large geographic areas and is based on county-
level data. Because D.C. has no counties, there is a high 
margin for error.
    In closing, the District of Columbia's population appears 
to be relatively stable with no significant increase or 
decrease between 2000 and 2005. Again, we will continue to use 
our own methodology for forecasting the future, and the Office 
of Planning continues to work with the Census Bureau to address 
these discrepancies in the figures and to promote estimation 
methodologies that produce more precise results at the local 
level.
    Thank you.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Silver follows:]

    [GRAPHIC] [TIFF OMITTED] T4298.036
    
    [GRAPHIC] [TIFF OMITTED] T4298.037
    
    [GRAPHIC] [TIFF OMITTED] T4298.038
    
    [GRAPHIC] [TIFF OMITTED] T4298.039
    
    [GRAPHIC] [TIFF OMITTED] T4298.040
    
    [GRAPHIC] [TIFF OMITTED] T4298.041
    
    [GRAPHIC] [TIFF OMITTED] T4298.042
    
    [GRAPHIC] [TIFF OMITTED] T4298.043
    
    [GRAPHIC] [TIFF OMITTED] T4298.044
    
    [GRAPHIC] [TIFF OMITTED] T4298.045
    
    [GRAPHIC] [TIFF OMITTED] T4298.046
    
    [GRAPHIC] [TIFF OMITTED] T4298.047
    
    [GRAPHIC] [TIFF OMITTED] T4298.048
    
    [GRAPHIC] [TIFF OMITTED] T4298.049
    
    [GRAPHIC] [TIFF OMITTED] T4298.050
    
    [GRAPHIC] [TIFF OMITTED] T4298.051
    
    [GRAPHIC] [TIFF OMITTED] T4298.052
    
    [GRAPHIC] [TIFF OMITTED] T4298.053
    
    [GRAPHIC] [TIFF OMITTED] T4298.054
    
    [GRAPHIC] [TIFF OMITTED] T4298.055
    
    [GRAPHIC] [TIFF OMITTED] T4298.056
    
    [GRAPHIC] [TIFF OMITTED] T4298.057
    
    [GRAPHIC] [TIFF OMITTED] T4298.058
    
    [GRAPHIC] [TIFF OMITTED] T4298.059
    
    [GRAPHIC] [TIFF OMITTED] T4298.060
    
    [GRAPHIC] [TIFF OMITTED] T4298.061
    
    Mr. Turner. Ms. Singer.

                   STATEMENT OF AUDREY SINGER

    Ms. Singer. Mr. Chairman and members of the subcommittee, 
thank you for inviting me today to testify on census data and 
demographic change in urban areas.
    I am Audrey Singer, immigration fellow at the metropolitan 
policy program at the Brookings Institution. I will focus my 
comments on data about the foreign-born population and how they 
are used in research to inform public policy decisions.
    My own research has focused on documenting the changing 
destinations of the foreign-born population, which I will 
briefly describe as an illustration of what we can learn about 
immigration from census data. I will mention as well some of 
the advantages and limitations of these data for understanding 
immigration.
    The United States experienced unparalleled immigration in 
the 1990's, when the foreign-born population grew by 57 
percent. By 2000, nearly one-third of U.S. immigrants lived 
outside of the traditional settlement States, including in 
Colorado, Georgia, Nevada and North Carolina.
    Many new metropolitan destination areas experienced rapid 
growth of their foreign-born populations between 1980 and 2000. 
Atlanta, Dallas, Las Vegas and Charlotte all had increases in 
their immigrant populations by more than 500 percent. By 
contrast, some places, including New York and Chicago and the 
District of Columbia, would have lost population were it not 
for an influx of foreign-born residents during those two 
decades.
    In a recent paper I used historical census data to create a 
typology of six immigrant gateways which charted the changing 
urban geography of urban immigration during the 21st century. I 
will describe three of them. The continuous gateways are places 
like New York, San Francisco and Chicago. These are long-
established destinations for immigrants, and they continue to 
receive large numbers of the foreign-born. Post-World War II 
gateways like Los Angeles, Houston, Miami began attracting 
immigrants on a large scale just 50 years ago. And in the Post-
world War II gateway, Atlanta, Dallas and Washington, DC, stand 
out as emerging gateways with very fast recent immigrant 
growth.
    The growing immigrant population in many new places across 
the United States raises questions about the ability of local 
governments and institutions to aid in the social, economic and 
political incorporation of immigrant newcomers into new 
regions. Local agencies and nonprofit organizations have an 
important role in developing and maintaining policies and 
programs that help immigrants become part of the communities 
where they live.
    Census data can be used to understand local trends, and 
many organizations rely on these data to derive information on 
how many immigrants reside in their community, which countries 
they come from, the period in which they arrived in the United 
States, languages spoken and English language proficiency.
    Traditionally researchers and others have turned to the 
long-form data from the decennial census to get fairly detailed 
data on immigrants. It is the one source that has provided 
national and subnational level data so that researchers can 
research comparable data at the State, county and tract levels.
    There are other surveys that the Census Bureau maintains; 
however, none are able to provide the kind of geographic detail 
that the decennial census does. The downside of the decennial 
census is that it is, in fact, decennial. Once every 10 years 
users have fresh data, and for a couple of years everyone is 
fairly happy. But by 2005, for example, local decisionmakers 
are no longer interested in 2000 data. They know that changes 
are taking place in their communities, and they want up-to-date 
information that captures the details of those changes.
    The American Community Survey [ACS], is a new source that 
promises to offer more timely data on the foreign-born. Until 
the advent of the ACS, most researchers interested in 
immigration trends between censuses looked to other sources to 
fill in the gaps, including other official sources as well as 
other local samples, surveys and estimates.
    Once it is fully implemented, the ACS will provide 
essentially the same information on the foreign-born on an 
annual basis, and, in fact, will replace the decennial census 
as the primary source for immigration data. However, one 
drawback of the ACS is that it is more limited than the 
decennial census in what it can tell us about smaller 
geographic areas, for which 3 and 5-year averages will be 
estimated instead of annually.
    There are additional challenges with the ASC, including the 
format in which the data will be published. Users not familiar 
with confidence intervals, which are estimates containing a 
midpoint bounded by an upper and a lower limit will have to 
learn to use them properly.
    And there is one other important constraint. The popular 
summary tables that are produced by the census had few 
indicators of economic status tabulated for the foreign-born. 
While one can access the poverty status of the foreign-born in 
a specific area, what is missing is education attainment and 
income, arguably some of the most sought-after data for those 
concerned about the well-being of this population. Given the 
importance of understanding the dynamics and the impact of the 
foreign-born population, many more summary tables on immigrants 
could be made available.
    Despite the limitations and challenges outlined above, I 
cannot underscore the importance of census data for local 
governments to develop and maintain practices and programs that 
help immigrants become part of the communities in which they 
live.
    Thank you.
    Mr. Turner. Thank you.
    [The prepared statement of Ms. Singer follows:]

    [GRAPHIC] [TIFF OMITTED] T4298.062
    
    [GRAPHIC] [TIFF OMITTED] T4298.063
    
    [GRAPHIC] [TIFF OMITTED] T4298.064
    
    [GRAPHIC] [TIFF OMITTED] T4298.065
    
    [GRAPHIC] [TIFF OMITTED] T4298.066
    
    [GRAPHIC] [TIFF OMITTED] T4298.067
    
    [GRAPHIC] [TIFF OMITTED] T4298.068
    
    [GRAPHIC] [TIFF OMITTED] T4298.069
    
    [GRAPHIC] [TIFF OMITTED] T4298.070
    
    [GRAPHIC] [TIFF OMITTED] T4298.071
    
    Mr. Turner. Again, I appreciate all the preparation that 
each of you have undertaken in order to participate in this and 
the insights that they have provided to us.
    Ms. Singer, I have a few questions. I am going to start 
with you. With the issue of illegal immigrants in the United 
States, obviously we have estimates of the size of the illegal 
immigrant population and some understanding of estimates of 
geographic location. Could you talk about the methodology of 
identifying population numbers and demographics for the illegal 
population that may be more difficult to capture in data 
points?
    Ms. Singer. Well, there is a fairly widely used methodology 
to develop estimates on the population residing illegally in 
the United States. And, in fact, estimates came out in, I 
think, March or April of this year, done by Jeffrey Passel at 
the Pew Hispanic Center, and that methodology uses census data 
at its core and estimates from the foreign-born population--the 
population that is legally residing in the United States--and 
then looks at the residual population and does some 
calculations and estimates, using other sources of information 
from census and other sources to make those estimates.
    Mr. Turner. In your testimony, you talk about the issue of 
discerning the origin of foreign-born individuals, and you are 
citing the issue of African countries and the grouping of 
Western Africa or Eastern Africa versus the breakdown of the 
different countries that they might have come from. You state 
that becomes a disadvantage in some of the data. Why is that 
data important, and what can it be used for by communities?
    Ms. Singer. OK. I have a very good specific example. Let me 
first just explain what I wrote about in my written testimony. 
I didn't mention it in the oral testimony. I am referring to 
the summary tables that are produced for the decennial census. 
They are also produced for the ACS, I believe, in a very 
similar fashion, and these take the national origin data--this 
is the country of birth of the foreign-born--and collapse some 
of the countries into regions of origin, because of the small 
size of the number of people that are counted from those 
countries in certain local areas for confidentiality purposes.
    So, for example, in the District of Columbia, and in the 
metropolitan region where we have a large African immigrant 
population that's over 11 percent of the region's foreign-born 
population right now, one of the largest of any metropolitan 
areas across the country, there are only six individual 
countries from Africa that are identified. And so while we can 
say how many Ethiopians we have, we are missing data on some of 
the other large groups that are important for people to know 
about this particular population. And where that comes up 
specifically is with regard to language needs and language 
access.
    And the District of Columbia recently passed a language 
access act which requires local agencies to serve immigrant 
populations in their own languages. And one of the surprises 
coming out of the language data is how many French speakers 
with limited English proficiency we have. I think that's due to 
the fact that we don't have the wide range of African countries 
available to look at.
    Mr. Turner. Very interesting. Very good point.
    I want to turn now to the issue of the pressure of 
immigrant populations on local governments. One of the 
sentences in your testimony, you said this new reality of 
growing immigrant population in many places across the United 
States raises questions about the ability of local governments 
and institutions to aid in the social, economic and political 
incorporation of immigrant newcomers into your local areas. You 
go on to say that there is no American process or policy in 
assisting immigrants, and that falls as a burden to the local 
communities.
    You talked about the increase that occurred in the 1990's 
in the foreign-born population. My first question along these 
lines is the issue of trending. In a previous hearing we had, 
we were looking at the trend of immigrants per 1,000 of U.S. 
population, and we saw a spike in the 1990's and toward 2000, 
but a leveling off so that the immigrants per 1,000 were about 
the same types of expression in numbers that we were seeing in 
1980's, 1970's and early 1990's before the spike occurred.
    What do you see as far as trending goes; that these local 
communities that are currently having this influx in this issue 
to address, what does it look like for them for the future?
    Ms. Singer. Well, I think, one thing about immigration, 
which is a very important thing to remember, is it's 
fundamentally a social kind of issue. So immigrants are social, 
and they go places where they know people, where they have 
family members. And so I would say that they also go, of 
course, to where there are jobs.
    I would say that given that sort of context, looking at 
these new places where there has been a recent rapid growth in 
the immigrant population, that we would expect this to continue 
into the next decade or so. I think that as long as people are 
finding opportunities in these new destination areas, they will 
continue to go there because of the kinds of social and family 
networks that are in place. Immigrants are drawn to places 
where there are other immigrants, so this kind of dispersion 
that we see will probably continues apace into the next decade 
or two.
    Mr. Turner. You then talk about, which I thought was 
fascinating, former gateways, emerging gateways and preemerging 
gateways. And one of the things that I would imagine in the 
former gateways--or also of the category you give us of 
continuous gateways--would be some local expertise on the issue 
of social issues in addressing immigrant populations and their 
assimilation into the community and the social services or 
issues that might be needed, whereas the emerging gateways may 
not have the historical experience in those processes.
    Do you see that pressure? When we were talking about the 
CDBG, the Community Development Block Grant, moneys here in a 
previous hearing, we heard a significant amount of pressure by 
the local communities toward the emerging gateways to respond 
to the needs of immigrant populations. I wonder if you could 
speak on that for a moment.
    Ms. Singer. Let me say first something about the former 
gateways. These are places like Detroit and Buffalo and 
Cleveland that used to get a lot of immigrants in the early 
part of the 20th century, and by 2000, they were almost 
virtually almost all native born. These places are not really 
seeing much immigration right now, but there is a little bit of 
an uptick in some of the central cities, of some of the larger 
cities across the older and the former traditional places in 
the foreign-born.
    So, in fact, if you look at the top 100 cities and their 
population change between 1990 and 2000, about one-third of 
them would have lost population were it not for immigrants 
moving into the central cities. So, in fact, some of these 
places are developing strategies to attract and recruit and 
retain the foreign-born in central cities because they see it 
as an economic revitalization strategy and as a way to make 
good use of available housing and commercial space. So I think 
that's one thing that's happening.
    But in the emerging places, and particularly the 
preemerging gateways, and those are places that are really, 
really fast-growing, that have virtually no 20th century 
history of immigration whatsoever, they are kind of being 
pushed in ways that they have never been pushed before. And it 
starts first with language issues and English language 
proficiency.
    Mr. Turner. Mr. Morial, in your comments, you indicated 
that we see the demographic shifts of our population where 
there may be no majority ethnic group. The reports that you are 
producing on the state of Black America currently relates to 
the Black population and the White population. What do you see 
in trending, as you look to your reports, that you might use 
for planning in your association?
    Mr. Morial. I would say that to make the report, to add to 
our report, we would, one, like to have up-to-date information 
on the Nation's Hispanic and Asian communities, which our 
researchers tell me that the same body of information is not 
available, so that we can make a fuller comparison and be able 
to chart the growth, chart the growth and chart the gaps that 
exist between the various population groups here in the United 
States.
    The most compelling thing, I think, about looking at the 
data and looking at the comparisons is to look at the economic 
data and to some extent the education data, because it would 
give you a highlight of what our workforce challenges and 
economic challenges are in the next 20 to 25 years.
    I was struck by the professor of Virginia Tech's 
information, which indicated this tremendous need for new 
housing. Obviously a question that you have been long concerned 
with is how and where this housing is going to go, and the fact 
that much of the available land may be in former gateways, may 
be in old industrial cities that have seen an outmigration.
    But having visited some of these fast-growth communities 
like Los Angeles, Houston, Miami--I was just out in Las Vegas--
the question really is at what point does the growth in 
population become far beyond their ability to absorb it, and, 
therefore, creating a trend that people are going to be looking 
to other communities, and these other communities may then have 
challenges that they do not have today.
    But the projection, I think, to look at the changing 
demographics of the Nation, gives us, I think, a better sense 
of what we need to do both from an economic standpoint, from an 
infrastructure standpoint, from a school standpoint, public and 
private infrastructure standpoint in the next 15, 20, 25 years 
to be able to keep pace with these changes.
    Mr. Turner. Well, the Urban League has a great record of 
community development and personal development initiatives. And 
your accomplishment in being a census information center 
partnership with the Census Bureau is certainly a wonderful 
one.
    I was wondering, in looking at the demographic data that 
you then produce on the state of Black America, what other 
partnerships formed from that, including planning and trading 
commission and workforce development and other agencies, that, 
in your ability to formulate this data in a compelling way, 
lead to the ability of providing services and partnering with 
other agencies?
    Mr. Morial. I think the opportunity to partner with other 
agencies is enormous, because it's an unmined field and the key 
thing with the data is if the data is only used by the experts, 
and it's important that the experts understand the data and 
utilize the data.
    But there's another role that the data plays, and our 
report really is an effort to connect difficult and complex 
data in a fashion that a mass audience or a broader audience 
can understand. I think we, along with other community-based 
groups, can play a more important role in educating the public, 
educating elected officials, educating business leaders and 
other community leaders about census information, about what it 
means for the future of local communities.
    And to some extent an organization like the National Urban 
League and other community-based groups, because of the fact 
that we are nonpartisan, because of the fact that we are 
identified with communities and issues, we sometimes feel we 
can speak, be a mouthpiece, be a megaphone, be a platform for 
the dissemination of this data that will sometimes seem less 
agenda-driven as sometimes people assigned to data, when it 
comes out of other sorts of organizations. So I really feel 
very strongly that we can work much more closely with other 
agencies.
    I also just had a comment, having, like you, had an 
opportunity to run a city, about the undocumented immigrant 
situation and the fact that you asked, I think, a very 
pertinent question, and that is do communities who are seeing 
an influx of immigrants, both documented and undocumented, have 
the tools that they need to be able to confront, provide 
services to these communities?
    Obviously, if most of these Federal programs are based on 
census data, and the census data is undercounting in Washington 
because of the methodology, or in other communities because 
they don't count people because of, quote, their lack of 
documentation, then it is clear that the tools that the Federal 
Government has designed--and State governments sort of hitch 
onto that--are not going to be adequate, because then the 
formula is not based on an accurate count of the people who are 
in need or the accurate county.
    So that is a real structural deficit in the programs, 
because the programs are based on census data which, for 
whatever reason and whatever case, may undercount people, and 
it is certainly clear that the lower people are on the economic 
scale, the higher the propensity for them to be undercounted or 
not counted at all.
    So I think that from the standpoint of local governmental 
officials, you know, the gaps in the census data translate into 
a diminution in Federal money, State money, and even if census 
data is sometimes used for private decisionmaking purposes that 
are not always evident on the surface. So I just sort of add 
that thought.
    Mr. Turner. That is a very good point.
    One of the things, when the State of Black America report 
was released this year, one of the things that you and I just 
spoke about briefly, was just the issue of the parallel 
experience of urban America as expressed in the report, and 
that there are some trends in urban America that make 
addressing the state of Black America and the progress in 
closing the gap more difficult. There may be some that are 
beneficial.
    So I would like for you to speak for just a moment about 
the trends in urban America that you see that might be 
problematic in addressing that gap, or those that you see that 
are positive trends.
    Mr. Morial. You know, one of the trends that you see is--
certainly in the older cities, which Ms. Singer talked about, 
the sort of former gateway communities--is that the people who 
remain in the former gateway communities sometimes are the very 
poor and the very rich, where you have had an erosion of the 
working class and the middle class in a lot of communities, 
like St. Louis and Cleveland and Pittsburgh and Buffalo and 
Detroit, New Orleans, the city that I led for 8 years. And you 
can go sort of on and on through sort of the industrial Rust 
Belt communities that really were the economic leaders of the 
first half of the 20th century. And these trends, though in 
older communities, you have the stark contrast in wealth, in 
educational attainment, in health outcomes that the community 
sees.
    So, in one place, you ask the question, do you look at the 
former gateways, and does it tell you where the country has 
been; or do you look at that time former gateways, and it tells 
you where the country is going?
    In many cases, one of my great concerns about the 
underdevelopment of former gateways and the underdevelopment of 
old cities--and I think the census data from 2000 will sort of 
affirm this--is you have a process whereby people are moving to 
the suburbs, who have moved to the suburbs, and now you see in 
communities like Washington and communities like Atlanta a 
return of upwardly mobile people back into the cities, because 
the economies are better, and the jobs are there, and the 
culture and the quality of life is significantly improved.
    Many of the older, inner-ring suburbs are beginning to have 
the characteristics of cities with deteriorating 
infrastructure, deteriorating housing. So to some extent it 
speaks to the need for, you know, some sensible public policy 
interventions. While we might say this is wonderful to see 
downtown Washington reemerging, it's visible, but it isn't the 
case for all of Washington. And then now you have the problems 
or the issues or the challenges, social and economic, which are 
part of Washington now existing in some of the suburban 
counties around Washington, just to use this region, you know, 
as an illustration.
    So, you can't quickly applaud the rise in downtown--
although I strongly support downtown revitalization as a way of 
priming the economic pump in a community, but if you look at 
the overall metropolitan area--and I think that is certainly an 
area where there has to be more analysis in terms of 
comparisons--because this sort of trend of people moving out, 
now people moving in, doesn't sometimes yield to an improvement 
in conditions. It just changes the location of the most 
difficult social and economic problems. So I think these are 
going to be issues.
    The final thing I would say is that if you look at the 
newer communities--I was recently in Phoenix, for example, 
where the population growth is tremendous, and the economic 
growth and the new buildings that are taking place are 
significant--you do have a large non-U.S.-born population.
    You have a lot of immigrants, both documented and 
undocumented, moving into that community. One of the things is 
can the Census Bureau help us plan and project what these rapid 
population growths are going to mean for social and economic 
problems 10 years from now, the schools, the transportation 
system, the quality of housing that needs to be built, so that 
it can sustain or withstand this rapid growth?
    I think the sum and substance of it is that the census 
data, we have to put more focus on it, and more attention needs 
to be paid to it as a real tool, a real tool for policy 
development in America's urban and metropolitan areas.
    Mr. Turner. Thank you. That was a great transition to Mr. 
Silver and his report, which I want to compliment you on. It 
was an incredibly welldone report and analysis, and it's the 
type of report that communities should look to for their 
planning purposes, because obviously if you are looking at the 
data, if you are managing the data, and you are utilizing it 
for planning, then you are looking to manage the future of the 
community.
    There were a few topics that came out of your report, the 
ones that happened to be favorites of mine, that the mayor was 
mentioning. I just wanted to have a brief conversation with you 
about those, because I think they are important to highlight. 
There are some things that you have said in your report.
    Obviously the graphs that you have given us here of a city 
divided, obviously economic segregation is an important issue 
that we need to look at both in census data and in planning. We 
also need to look at the issues of building an economic and a 
tax base for our urban cores so that not only you have the 
support for the social services that are needed for all 
populations, but also for supporting the infrastructure, where 
the urban core generally supports all of the population's 
migrations throughout the metro region and the greater burden. 
And then there's the issue of displacement and gentrification.
    I use it to tell people, when people would raise the issue 
of gentrification when I was a mayor, that I have never met a 
gentry, so I can't imagine that gentrification occurs.
    But in my own community in Dayton, OH, in the neighborhood 
which I lived when I served as mayor, it was a neighborhood 
that my family had migrated to from Kentucky. It was one of the 
lowest-income census tracts, if not the lowest census income 
tract, in the city. When my wife and I moved into the 
neighborhood, we purchased the house from an urban pioneer who 
had gone in and restored the house, a late 1800's house that 
had been abandoned in the 1960's. It had been converted to a 
three-family apartment building. It was then abandoned for a 
period of 10 years. The gentleman who acquired the house 
renovated it, returned it back to single family, and then sold 
it to us.
    That house, I thought, was an interesting study in the 
demographic shift of cities in that at one point it would have 
had three family units in it. It was a single-family house. So 
at one point our density was too great, because we didn't have 
the housing structures that met the needs of the population 
that was there, so we were cannibalizing our single-family 
houses. They then became abandoned as the life cycle of the 
multifamily use of them had come to an end, and then restored 
back to single family use. The neighborhood that I moved into 
was in the process of rehabilitating one-third of its abandoned 
structures. So as new families were moving into these homes, we 
did not have the expression of displacement.
    Yet you in your report indicate that while most of the new 
housing built since 2000 consists of apartments and condos 
designed for smaller households, this housing is generally not 
displacing family housing. I live in the Penn Quarter, and I 
live in a building that used to be a department store. So, 
again, it is not a displacement of family housing.
    Could you talk just a little bit about the issues of having 
to balance, making certain that you have housing that responds 
to the various economic sectors of the communities, the issue 
of trying to make certain that you have low and moderate-income 
housing that's available in the community, and its impact on 
the neighborhoods?
    Mr. Silver. Right. As you know, the issue of gentrification 
and displacement comes up often, but the District is 
approaching new housing in several ways. One, clearly there are 
some abandoned structures that are being rehabilitated and 
being opened up. In some cases they are being converted from 
what was multifamily to one family. But also the District is 
also looking at many new sites that are vacant, new locations 
for new housing.
    So, in those locations we are actually seeing new 
construction, mostly of one and two bedrooms, which are going 
to smaller households. What the District is doing, as the map 
is indicating, is looking at the housing conditions, and we 
actually have a policy, as we move forward we want to grow more 
inclusively.
    As we look east of the river, for example, we are trying to 
provide units that provide more housing so we do retain our 
families, because that household size over time is showing that 
smaller households are moving into the District; larger 
households are moving out. So the way we are trying to balance 
that is looking for sites right now that are vacant; that there 
is currently no housing to, again, encourage that growth to 
come in and preserve some of the older areas to retain some of 
those families.
    So, again, as we move forward, we want to make sure it's 
balanced. We are looking at some of the higher-market areas to 
be sure how we can actually incorporate more affordable 
housing.
    The District right now is looking at inclusionary zoning. 
For example, the council has a commission on affordable housing 
to insure that as the District grows, we can deal with some of 
those issues of displacement and gentrification.
    Mr. Turner. In reading your report and analysis on the 
shift in the demographics of the population of Washington over 
time, you identified the loss of a middle class as a 
significant decline.
    On the Federal level we have many policies that encourage 
low and moderate-income housing and provide assistance. On the 
upper-end scale, many local communities have undertaken 
policies to encourage upper-end market rate housing through tax 
abatement policies and other types of creative financing 
packages.
    What types of housing policies or strategies have you 
looked at in trying to address the issue of sustaining a middle 
class in Washington, DC?
    Mr. Silver. That is a very good question. It is an issue 
that now is being discussed and debated intensely at the city 
council. What we have recognized is that this is one of the 
hottest real estate markets both for office and for residential 
development. And right now, the private sector is moving 
forward in market rate housing very quickly, and basically very 
little incentive is needed. Some are requesting some density 
increases to provide some of the amenities the District is 
seeking, but right now there is very little incentive, because 
right now the market in the District is very desirable.
    On the other side, however, both the residents and the 
Mayor, as well as the council, recognize the need of retaining 
some of those families. And you are correct, both larger 
households and the middle class, some are finding it hard to 
afford the rents in the District and are leaving. But we are 
very concerned about keeping some of those working class, the 
firemen, the policemen, the teachers, here in the District. And 
we now have a comprehensive housing task force that is looking 
to issue a report in the coming months to recommend ways of 
keeping that very needed population here in the District.
    So, again, just to sum up, the market rate is moving 
forward with incentives. We are now looking at what incentives 
that will be needed to generate more affordable, lower market-
rate housing.
    Mr. Turner. One of the things that you have addressed in 
your testimony is undercounting. Mayor Morial first mentioned 
that the U.S. Conference of Mayors and the U.S. National League 
of Cities frequently tries to address the issue.
    Can you give us some insight into what the District has 
done in working with the Bureau to try to get an accurate 
representation of the population, and where you see some of the 
greatest difficulties are in getting the accurate data for 
counting in D.C.?
    We do have a relationship with the Census Bureau, and we 
are contacted before the numbers come out. We are working with 
them again. We met with them as recently--well, at least had a 
conference call as recently as a month ago to address some of 
these concerns.
    We don't know if our concerns are being addressed. We are 
considering a challenge to the numbers, because the District is 
a unique jurisdiction in that it is not a State with a number 
of counties. But we will continue to work with them to see if 
they can, in fact, make those adjustments to this unique 
jurisdiction that is different than any other State they are 
dealing with in the country.
    If we feel that we are not satisfied with the way in which 
they are conducting those counts, we are considering a 
challenge to those numbers, because, again, we believe the 
District has been undercounted. Again, the 2000 census actually 
indicated that, where they undercounted by 50,000. I don't know 
if I can give specific reasons why they are undercounting, but, 
again, we want to work with them to try to rectify that 
problem.
    Mr. Turner. Thank you.
    Mr. Farmer, your discussion of the projections of 
population growth in the United States and its opportunity for 
urban areas was fascinating to me. You were talking about 
Professor Nelson and if his estimates are correct that half of 
all development in 2030 will have been built since 2000, and 
$20 trillion will be spent on construction or redevelopment. 
And he argues that in the first three decades of the 21st 
century, we will see more urban development than any comparable 
period in the Nation's history.
    What, from a planning perspective, should cities and 
communities be doing to try to capture this? If it's a wave 
that's coming, they need to be ready, and they don't want to be 
in a situation where they recognize it after the fact and have 
lost the investment opportunity and the redevelopment 
opportunity. What advice would you have for them?
    Mr. Farmer. I agree with you totally. I think there's an 
enormous opportunity here. Some cities have already started 
taking advantage of that. Other cities, unfortunately, haven't 
yet started to take advantage of that. One of the things we are 
trying to do is get the word out and show the best practices 
that are occurring around the country to other communities.
    A lot of it really is demographic-based. When I was 
planning director of Minneapolis, we had done an analysis--much 
as the kind of analysis that Mitch and his colleagues have 
done--where we found that over 40 years the entire population 
loss of the entire city of Minneapolis could be accounted for 
by household size decline; that the number of occupied dwelling 
units was exactly the same over that period of time.
    That was good news to us, because it showed that people 
really weren't necessarily just fleeing the city, they were 
aging in place. And households that used to have two or three 
kids were down to one parent, or when a parent passed, it was 
down to one.
    And we also found by using census data that in terms of 
what was happening in the city, we were seeing two types of 
households that were becoming more dominant in the city, 
single-person households, where the city had a larger share of 
those than the rest of the metropolitan area did, and 
multiperson and multichildren households, where the city wasn't 
just the rich/poor, as the mayor was pointing out, but it was 
also this dynamic of small/large. And part of that related to 
immigration, coming back to what Ms. Singer was talking about.
    We had a rising Somali population where in one junior high 
school alone, we went from several hundred Somali students to 3 
years later we had some 1,200 Somali students. And that was not 
something that we could pick up very easily other than every 
September when students showed up in school, because we didn't 
have the small area data that you would really like to have.
    So one of the things that I think could be done in terms of 
how do you tie these plans and these opportunities to the issue 
of data is that issue of better small area data, more frequent 
small area data, so that we can better understand some of those 
dynamics and take it to the development community.
    In Minneapolis, we were at 200 units a year of new housing 
being built over the previous decade. We had to help convince 
an industry that they could make money, and there were markets 
in the city. Data is one of the ways you do that. The housing 
industry in this country is largely reactive. If somebody sees 
it has been done 12 times, they figure that they will make 
money on the 13th. It's the path-breaking sorts of things that 
require a lot work and a lot of conversations.
    So in terms of how can we get more cities to understand 
these dynamics, and understand opportunities they now have that 
perhaps they haven't had in many, many decades, I think that 
it's kind of telling the stories of success that are out there. 
It's working with Census Bureau and others to put on workshops 
so that people better understand how to use the data that is 
available, and certainly working with Congress to see that kind 
of more and better data is continually provided so that we can 
better react at the local level to the kind of churning of the 
population, as I call it, within the regions, and the churning 
that is affecting cities and increasingly first-ring suburbs, 
because the disinvestment the city saw for so long is now 
really what is going on in the first-ring suburbs of this 
country.
    So it is not just sort of a city/suburban issue anymore. It 
is city, first ring, second ring, third ring, and earlier in 
the day you heard the comment, exurb. Those are all the 
dynamics we see in the metropolitan areas. And you have seen 
some of the jobs/housing mismatch that you are familiar with, 
Dayton, we see all over the country. And, again, I think that 
good plans can start showing people opportunities that perhaps 
they didn't think existed.
    And I think--I characterize good planning as a 
conversation. It's a conversation among political leaders, 
business leaders, engaged citizens. Good plans are a story, and 
they are going to be effective. It can't be documents that 
people have to go read. It has to be a study because people 
understand what that story line is, they buy into it. They 
invest it accordingly, whether it's money and their time and 
their creativity, because they know they are going to get paid. 
That's why many people make any kind of investment.
    So I think you need to keep looking at the good planning 
that is going on and infusing it with the information, the 
data, and to infuse it with knowledge of what these 
opportunities really are, because the data--as you say, Arthur 
Nelson's work is really, really kind of interesting and 
challenging for us--because it suggests that we are entering a 
time now that we haven't seen before, or, for many regions, 
they haven't seen since perhaps there were those settlement 
areas of the last century.
    So we are very optimistic about some of these possibilities 
that we see going on around the country, and I think that as 
you look over the next 10 years, you are going to see some real 
positive changes in communities. And there are going to be some 
of those challenges of gentrification, but I think more often 
than not it's not going to be a gentrification problem, but the 
kind of rebirth of communities that we increasingly can point 
to as a sort of best practice around the country.
    Mr. Turner. I really appreciated your reference to the 
issue of brownfields, because as you look to this country for 
urban areas to grow and recapture the population--as we all 
know, nationally our local areas and our urban areas have been 
struggling financially. So their ability to assist in the 
redevelopment of their land within their jurisdiction is 
limited. And we all know that when we are talking about urban 
development, you are talking about redevelopment. That means 
that there is something else in its way, either in the issue of 
assembling land or buildings or abandoned factory sites and 
contamination that need to be addressed. And the need for us to 
look at the type of assistance to look at urban areas to take 
advantage of this next wave, as you mentioned, is very 
important.
    I would love for you to comment further on the issue of 
brownfields and issues to see if there are opportunities for 
urban areas.
    Mr. Farmer. I get really excited when I talk about 
brownfield reclamation. As I said in my testimony, it's really 
been gratifying to see brownfields come alive again.
    In Minneapolis, we found out every time we cleaned up a 
brownfields site, we had developers waiting in line. There was 
not a market issue at all. It was the issue of getting over 
that hurdle of the cost of cleanup.
    And we also talked with the State legislature, and we had 
some good support from both sides of the aisle over in St. Paul 
for our State programs, because we said, look, these 
brownfields aren't there really because people intentionally 
did evil things; they did the wrong things. Those brownfields 
were there because those companies were doing the best 
practices at the time. But a lot of the wealth of the State of 
Minnesota was created through what were then those brownfield 
sites that had then been abandoned.
    So we felt that there was a State partnership role in that, 
and the State did partner with us on that. And so we were able 
to start reclaiming a lot of those sites, many of them in the 
upper Mississippi area. I had done work for many, many years in 
Pittsburgh. I was in Pittsburgh from about 1980 to 1994, and we 
worked very hard on steel mill sites and then the heavy metals 
industry in general, and we found that again as we cleaned up 
along the Monongahela River we were able to get a research and 
technology park built.
    We took a 42-acre island in the Allegheny River that for 
its entire history had been in very low level kinds of uses. We 
had to clean up PCBs. It was a place where cattle were 
offloaded halfway between the Chicago stockyards and the New 
York market because of Federal laws that required feeding and 
watering so there wouldn't be disease. The cattle would be then 
slaughtered for the western Pennsylvania market. So part of our 
brownfield cleanup was taking care of cow innards with grass in 
stomachs and wonderful things like that. I could get very 
graphic on this.
    But every community has their own brownfield stories. And, 
again, I suggest that in the vast majority of cases it wasn't 
malfeasance of any type that created those brownfields. And you 
kind of get beyond that and you get very pragmatic and say, OK, 
roll up our sleeves and let's get the work done. Often those 
brownfield sites are near waterways that are incredibly 
desirable today. Again, Harris Island in Pittsburgh, that 
island I told you about, there are people living there. It's a 
mixed use community. In 1980, people said, you know, you folks 
are crazy, a bunch of planners dreaming these dreams. You know, 
no one is ever going to live on Harris Island. It was rat 
infested and everything else. But there was water there. You 
find those kinds of amenities, and a lot of the housing built 
near downtown Minneapolis on brownfield sites is because the 
downtown itself is such a striking amenity, the cultural 
opportunities, the library, things of that nature.
    And so I think that brownfield investment is some of the 
best investments we see, and we appreciate the Federal support, 
the State support, and the local support, because every time 
you develop a brownfield it means that you are not having to 
develop a greenfield. Typically those brownfields are going to 
be developed at a more intensive level. So it is not just an 
acre for acre. It's many acres per acre.
    In Pittsburgh, again, we were able to show that a job in 
downtown Pittsburgh generated one-ninth of the vehicle miles 
traveled of that same job out in a greenfield area. And so 
there's some enormous efficiencies. And so, as I said, I am a 
big supporter of brownfield reclamation, and I think that's one 
of the ways you bring back cities and, as I mentioned, 
increasingly, the first-string suburbs.
    Mr. Turner. Thank you for your enthusiasm on that topic.
    I want to thank Mr. Dent for being with us in this hearing, 
and also recognize him for questions for panel two.
    Mr. Dent. Thanks, Mr. Chairman. And, Mr. Farmer, you just 
mentioned you left Pittsburgh I believe in 1994.
    Mr. Farmer. Yes, sir.
    Mr. Dent. In 1995, the legislature then passed Act II, 
which is the model brownfield law for the Nation, and since 
that time I'm happy to tell you there are 1,300 sites in 
Pennsylvania that have either been remediated or are in the 
process of being remediated, and I happen to live in the 
district that probably has the Nation's largest single 
brownfield site, the old Bethlehem Steel site where they used 
to produce a ship a day during the Second World War, and there 
was various types of contamination. But that land is being 
remediated at a rather quick pace.
    Your observation in other parts of the country, how much 
housing are you seeing on these brownfield sites? I am told by 
our Secretary of Environmental Protection in Pennsylvania that 
certain HUD grants can't get to the brownfield sites because 
of, I guess, there is some thinking that you will somehow be 
drilling for well water on a brownfield site as opposed to 
tapping into a municipal system. Are you seeing a fair amount 
of residential development on these brownfield sites? You sited 
some mixed use, but I'm mostly seeing commercial, industrial.
    Mr. Farmer. Congressman, it certainly is easier to develop 
nonresidential on most brownfield sites. You have that 
additional hurdle to get over. Certainly on Harris Island in 
Pittsburgh, as I said, we have housing there now, and it's in 
an area of the island where there were PCBs that had to be 
cleaned up. And so it is possible.
    In Minneapolis, the railroad area near downtown is a very 
thriving, largely residential area on brownfield sites. And so 
we can see examples around the country. I think that part of 
that is that you need to have the entire community come 
together to understand the nature of the brownfield site. It's 
not just the planners producing the plans with the local 
officials approving them; it's the financing industry, for 
example. And I think it is possible, but it's a more 
substantial hurdle to get over. I think that's why 
statistically you would find, as your observation I believe is 
correct, that you'd find more nonresidential than residential. 
But it's not impossible and it is not in general so much more 
difficult that we couldn't expect more of it.
    Mr. Dent. How much public investment are you seeing in 
those brownfield sites prior to private investment? Obviously 
our goal is to draw private investment onto those sites. My 
observation also has been that there has been a fair amount of 
public investment either for demolition, again remediation 
costs, and other site-related work. Has that been your 
experience, too? How much private money are we drawing in for 
the actual remediation as opposed to the development itself?
    Mr. Farmer. Another very good question. In most cases, 
certainly you are going to find that public investment is 
necessary up front. I've always said that the public needs to 
be involved in the difficult projects. The easy projects, the 
private sector can handle just fine. And many brownfield 
projects are difficult projects.
    I'm using some old data now, but I know in Pittsburgh, for 
example, the public investment was about 24 million for a 42-
acre island, about half a million an acre. That housing, by the 
way, we had market studies done. And after we cleaned the 
island up, got some jobs there, did some other kinds of things, 
we thought we were ready for housing; and a housing market 
study back in about 1990 said, well, if you're lucky and 
everything breaks your way, you're going to get $130,000 a unit 
for the housing. Instead, Pittsburgh, when they opened that 
housing in the mid 1990's, was getting about $240,000, which at 
that time was a large amount. And people were buying two units, 
combining them, and moving in from the suburbs. So people were 
spending half a million to live on a site where people said no 
one would live there.
    Interestingly, Pittsburgh has a wage tax. And my friend who 
is still in Pittsburgh said that they have now tracked the 
return on the public investment, and the wage tax alone from 
people now living on the island has repaid the public 
investment, and all the property taxes and everything like that 
are gravy.
    So I think that if we had some financing mechanisms that 
operated as sort of a front-end bank, then you would have a 
better chance to make more brownfields get the market to work, 
get the repayments made, and let the private sector come in at 
the point when you have done enough of the cleanup that they 
can begin to make their money. A developer told me years ago, 
again, on Harris Island, we were bringing them in in the early 
1980's and saying we want housing here. He took a look at it, 
and he said, Mr. Farmer, he said, I'm a developer; I make money 
developing, not meeting. He said, you call me back in 5, 7 
years when you are ready. He's the guy who did the housing. We 
called him back in 5 to 7 years.
    But, again, I think that the public sector has to do a lot 
of this front-end work, but then the private sector, once you 
get to a point where they can see the timeframe and they can 
kind of understand that it's not an open-ended checkbook 
situation, then as we found in Minneapolis they rush in.
    Mr. Dent. Do you think there is a role for the Federal 
Government in helping with that financing to the extent that, 
again, since you left Pennsylvania, not only did we pass the 
landmark brownfield laws first in the Nation, but then we 
passed what's called the Keystone Opportunity Zone law that 
basically allowed for local jurisdictions to set aside tax free 
property, usually a dead spot, often a brownfield site. The 
municipality and the county weren't getting any revenue out of 
the site to begin with; made them totally tax free; it was an 
incentive and helps draw in investment. Now, obviously you get 
this thing up and running and 12 years later you can start 
recovering tax revenue.
    Do you think there is a way for the Federal Government to 
help in financing those types of projects? It could be 
expensive, but when you forgive all local and State taxes on a 
site, it's quite a bit.
    Mr. Farmer. I mean, I think that the Federal partnership is 
certainly important. As I said, I think it's Federal, State, 
local, and private. It's that entire partnership, and so I 
would think that there is room for kind of additional activity 
at the Federal level. Again, these benefits aren't just local. 
When you look at the vehicle miles traveled that I mentioned, 
that means that there is that much less oil we import, that 
means that the balance of payments is that much more favorable.
    So I think there's room for continued development at the 
Federal level of some sort of innovations and the type of 
financing you are talking about that you saw back home when you 
were in the State legislature.
    Mr. Dent. And my final question I guess I will address to 
Mr. Silver. Well, the Federal Government addresses some 
regional issues like highway systems. How can entities with 
regional jurisdiction better use the census data to solve their 
regional problems, and specifically to Washington, are you 
actively involved in the District of Columbia with regional 
planning with Maryland and Virginia, for example?
    Mr. Silver. Yes. There is something called the Metropolitan 
Washington Council of Governments, and these include 
municipalities from the counties surrounding, both including 
the District of Columbia as well as the surrounding counties in 
Maryland and Virginia. So, yes, we do look at some of the long-
term forecasts for both population, for growth and for 
households. There are many different subcommittees that meet on 
a regular basis, and we together agree on forecasts and see 
exactly how the region will be changing and growing over the 
next 25 years.
    So the answer to that is, yes, we do look at those issues 
on a regular basis.
    Mr. Dent. Not just highway, but you are looking at water 
issues, air issues, all sorts of----
    Mr. Silver. Primarily. Well, those are left to the 
individual jurisdictions when it comes to water and some other 
infrastructure needs. But collectively we look at the 
population, we look at households, we look at jobs. Each of the 
jurisdictions begin to look individually at those 
infrastructure needs, which is why our forecasts are more 
important than the projections that the census is putting out. 
We can see long-term. For example, we are planning for the 
growth of close to 140,000 over the next 25 years. We look also 
at the infrastructure capacity of our roadways. But, again, 
that is within the jurisdiction. Some jurisdictions do rely on 
the COG numbers as they look at, for example, the 
interconnector in some of the Maryland counties to see how they 
are going to handle that population. So those COG numbers are 
used for projections. But collectively, we do not do the 
regional infrastructure or capacity analysis that you are 
alluding to.
    Mr. Dent. And then finally, as a person who lives down here 
a few days a week and sort of new to Washington, my observation 
has been you just look at the traffic outside the city, and 
it's unbearable for much of the day. I guess, do you have these 
discussions, too, about trying to incent individuals living out 
there to actually reside in the city, to keep people off the 
roads and to keep them off the metros? Do you have those kinds 
of discussions regionally about trying to incent these people 
who work here to actually live down here?
    Mr. Silver. Well, clearly the District would enjoy it if 
everyone who worked in the District lived in the District. But 
I'm sure those are individual decisions. But there are clearly 
more jobs than people in the District, and we would love them 
to come and move here in the District. There is room. But 
clearly we do look at some of those issues. And what we are 
finding is that, as housing becomes more expensive, there are 
people looking for housing choices further away. We're trying 
to make of course housing more affordable, more housing for 
people to move here in the District, and make sure that we have 
those metro and transit connections so that people would use 
public transportation as opposed to driving to work.
    Of course, living in the District would be the best of all 
worlds because then we have a very good public transit system 
that people can use. We are looking to expand that system on a 
regular basis to see how we can serve some of those other 
populations. But of course we believe the best approach would 
be to move here in the District. That would be the best of all 
worlds.
    Mr. Dent. Thank you.
    Mr. Turner. Thank you, Mr. Dent. I don't have any other 
questions, and I would like to ask if any of you have any 
concluding remark before we close?
    Mr. Morial. Thank you.
    Mr. Turner. Before we adjourn, I would like to thank our 
distinguished panel of witnesses for their participation. Oh, 
you do. Mr. Silver.
    Mr. Silver. Yes. I first want to thank you for allowing us 
to come here and testify. I want to make a clarification. You 
mentioned our concern about the Census Bureau undercounting. 
Our concern really isn't with undercounting; it is really with 
underestimating. The estimates are of a huge concern to the 
District because it affects both Federal and State allocations. 
We really rely on the census information looking backward. But, 
again, as I said, looking forwards, looking forward is a 
concern of ours because, again, we are showing different 
trends. But the estimates base the Federal and State 
allocations, and we want to work with them to look at a 
different methodology than using for States across the country. 
The District of Columbia is very different and we believe 
warrants a different method. And so, again, it is not the 
undercounting, it is the underestimating which has a huge 
impact to the District.
    Thank you.
    Mr. Turner. Thank you for that distinction.
    Again, I want to thank you all for participating and 
bringing your expertise here. Certainly one thing that has been 
shown in this hearing is that it is important to recognize that 
there's many important uses of the census data. It can teach us 
about the past and the present and the future, and what trends 
we need to plan for and how we need to look to the future of 
our communities.
    Urban America is experiencing many changes, and the city 
should be prepared to meet those challenges now and in the 
future. It is important that the Census Bureau continue to 
provide the most accurate population counts, demographic data, 
and economic information through its periodic censuses and 
ongoing surveys.
    To that end, I plan to introduce legislation that will 
continue the Secretary's authority to conduct the quarterly 
financial report, the QFR program, by removing the sunset 
provision contained in the authorizing legislation. The Census 
Bureau has successfully conducted the QFR for one of the most 
important economic indicator programs since 1983. It provides 
timely, accurate data on business financial conditions for 
making businesses and investment decisions and for research by 
government and private sector organizations and individuals. 
Preserving the QFR ensures the accuracy of the gross domestic 
product and flow of funds accounts and is thus in the Nation's 
best interest.
    Again, I want to thank the witnesses for all of your time 
and preparation, and if there is nothing else for us to 
address, then we will be adjourned. Thank you.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4298.072

[GRAPHIC] [TIFF OMITTED] T4298.073

[GRAPHIC] [TIFF OMITTED] T4298.074

[GRAPHIC] [TIFF OMITTED] T4298.075

[GRAPHIC] [TIFF OMITTED] T4298.076

[GRAPHIC] [TIFF OMITTED] T4298.077

[GRAPHIC] [TIFF OMITTED] T4298.078

[GRAPHIC] [TIFF OMITTED] T4298.079

[GRAPHIC] [TIFF OMITTED] T4298.080

[GRAPHIC] [TIFF OMITTED] T4298.081

[GRAPHIC] [TIFF OMITTED] T4298.082

[GRAPHIC] [TIFF OMITTED] T4298.083

[GRAPHIC] [TIFF OMITTED] T4298.084

[GRAPHIC] [TIFF OMITTED] T4298.085

[GRAPHIC] [TIFF OMITTED] T4298.086

[GRAPHIC] [TIFF OMITTED] T4298.087

[GRAPHIC] [TIFF OMITTED] T4298.088

[GRAPHIC] [TIFF OMITTED] T4298.089

                                 <all>

</pre></body></html>
